No. _____
IN THE

Supreme Court of the United States
BRANCH BANKING & TRUST COMPANY,
Petitioner,
v.
SEVIER COUNTY SCHOOLS FEDERAL CREDIT UNION,
ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE

I hereby certify that I am a member in good standing of the bar of this Court and
that the Petition for a Writ of Certiorari contains 4,682 words and complies with the
word limitation established by Rule 33.1(g)(i) of the Rules of this Court.
Dated: September 7, 2021

/s/ Thomas H. Dupree Jr.
Thomas H. Dupree Jr.

